Before the National Transportation Safety Board




                          January 2, 2008,
For Release on Delivery
October 7, 2008
CC-2009-020
                          Victoria, Texas, Motor
                          Coach Accident




                          Statement of
                          Joseph W. Comé
                          Assistant Inspector General for
                          Highway and Transit Audits
                          U.S. Department of Transportation
Member Hersman and NTSB Staff:

We are pleased to be here today to assist you in examining safety issues related to
the January, 2008 Victoria, Texas, motor coach accident. In particular, the issue
of Mexico-manufactured buses operating in the United States while not in
compliance with Federal Motor Vehicle Safety Standards (FMVSS).

As you know, the FMVSS are set by the National Highway Traffic Safety
Administration (NHTSA). In addition, the Federal Motor Carrier Safety
Administration (FMCSA) has authority over the safe operation of commercial
motor vehicles, including passenger buses that are involved in interstate and
foreign commerce.

Over the past 3 years, we have issued nine reports and participated in five
congressional hearings covering NHTSA and FMCSA safety programs (see
attached list). Our most recent work has focused on issues related to Mexico-
domiciled carriers that are presently operating in the United States, or planning to
do so under the cross-border trucking provisions of the North American Free
Trade Agreement (NAFTA).

We have not examined the importation and registration of foreign passenger buses
by United States companies for use in the United States so we cannot provide any
insight into those issues. However, our prior work does allow us to comment on
three areas: safety inspections of buses at the border, FMCSA’s guidance for
determining Mexican commercial motor vehicle compliance with FMVSS, and
FMCSA’s research on the degree to which Mexican commercial vehicles
operating in the United States comply with FMVSS. In brief:

   • First, our prior work identified concerns about whether sufficient
     inspections of passenger buses can be conducted at the southern border. In
     2005, we found that insufficient staff prevented FMCSA and state officials
     from inspecting passenger buses at some southern border crossings and in
     2007, we identified a major crossing in Texas where inspections could not
     be done during high volume holiday periods due to space limitations. Thus,
     bus carriers could avoid inspections during those periods. In response to
     our recommendations, FMCSA took action to improve bus inspection
     plans, but some actions are still underway and will require follow-up by our
     office.

   • Second, we reported on the need for further guidance on determining
     compliance with FMVSS using vehicle identification numbers, and FMCSA
     subsequently issued guidance applicable to its demonstration program. In


                                                                                  1
           August 2005, FMCSA issued guidance on determining compliance with
           FMVSS by using vehicle identification numbers and promised further
           implementation guidance. We reported in 2007 that further guidance had
           not been provided and might be needed as vehicle identification numbers
           were not always entered into the database. FMCSA subsequently issued
           guidance on the use of software for checking vehicle identification
           numbers. This guidance applied to Mexico-domiciled carriers participating
           in the FMCSA cross-border demonstration project. No buses are
           participating in the current demonstration project.

      • Third, we recently completed work assessing FMCSA’s research on the
        degree to which Mexican commercial vehicles operating in the United
        States complies with FMVSS. Of interest to this hearing, the research
        assumed that the Mexico-manufactured buses operating without an affixed
        manufacturing label did not comply with FMVSS. This was based on a
        lack of industry information available to determine whether the vehicles
        were in compliance when manufactured. The FMCSA sponsored research
        also provided evidence that most Mexican-owned commercial vehicles
        sampled while entering the United States, including buses, complied with
        FMVSS, although we did not find the estimates based on the sample to be
        statistically valid.

Further details on each area are provided below.

Concerns About Sufficient Bus Inspections at the Southern Border
As part of our review of eight safety criteria related to Mexico-domiciled motor
carrier truck and bus operations,1 we reported in January 2005 2 that the number of
Federal and state staff at some designated bus crossings was insufficient to meet
the criteria for inspecting buses and for verifying the bus driver’s commercial
driver’s license (CDL). We recommended that FMCSA revise policies,
procedures, staffing, and facility plans to make Mexico-domiciled bus coverage
consistent with FMCSA policy on vehicle and driver inspections for other
Mexico-domiciled commercial vehicles granted long-haul authority. In response,
FMCSA worked with United States Customs and Border Protection to identify
mutually acceptable inspection procedures and issued the Southern Border
Commercial Bus Inspection Plan. The Bus Inspection Plan identified the ports of


1
    The Department of Transportation and Related Agencies Appropriations Act for Fiscal Year 2002 (Pub. L. No. 107-
    87 [2001], Section 350(c), and subsequent appropriation legislation required that the Office of Inspector General
    (OIG) annually review eight safety-related criteria related to Mexico-domiciled motor carrier truck and bus
    operations beyond the commercial zones. OIG was called on to verify whether FMCSA had adequate capacity at
    southern border crossings to conduct a sufficient number of meaningful vehicle safety inspections.
2
    OIG Report Number MH-2005-032, “Follow-up Audit of the Implementation of the North American Free Trade
    Agreement’s Cross-Border Trucking Provisions,” January 3, 2005.


                                                                                                                   2
entry in each of the four southern border states, described their respective bus
inspection issues, and identified planned strategies for addressing those issues. 3

We revisited this issue in August 2007.4 Based on our observations at a bus
crossing in Laredo, Texas, which services an average of 3,000 bus crossings
monthly, we noted physical space and capacity limitations that prevented FMCSA
and state motor carrier inspectors from conducting bus inspections during high
volume holiday periods. As a result, Mexico-domiciled bus carriers that were
granted long-haul authority could avoid vehicle or license inspections at this
crossing during busy periods. Unfortunately, the Bus Inspection Plan covering
this crossing did not identify this important issue. Further, when we surveyed
selected inspectors at border crossings, they pointed out other bus inspection items
requiring attention, such as the lack of a ramp on which to conduct bus
inspections.

FMCSA agreed with our recommendation that it routinely confirm the
effectiveness of its Bus Inspection Plan, either by periodically surveying its
inspectors or pursuing other means to identify site-specific issues to improve bus
inspections. It also provided funding for a review of bus activities and operations
at the southern border crossings. The results of that review are due in October
2008. We plan to follow-up on these actions in our next audit.

Implementation Issues with Guidance on Ensuring FMVSS
Compliance
In our August 2007 report, we noted that FMCSA proposed rules in March 2002
that would require each commercial motor vehicle operating in interstate
commerce in the United States to display a certification label asserting that the
vehicle complied with FMVSS, as applicable, when it was built. In August 2005,
FMCSA withdrew the proposed rule after determining that it could ensure Mexico
motor carriers’ compliance with these standards while operating in the United
States, without the proposed rule.

Specifically, FMCSA stated that to meet this requirement, it could enforce the
already established Federal Motor Carrier Safety Regulations and other policies,
as many of the safety regulations are cross-referenced to the FMVSS. FMCSA
expected that enforcement would occur during the pre-authority safety audit of
Mexico-domiciled motor carriers and their United States-Mexico border crossings
and roadside vehicle inspections in the United States.


3
    Buses are permitted to enter the United States at separate bus crossings and at times when commercial trucks are
    restricted.
4
    OIG Report Number MH-2007-062, “Follow-Up Audit of the Implementation of the North American Free Trade
    Agreement’s (NAFTA) Cross-Border Trucking Provisions,” August 6, 2007.


                                                                                                                  3
In August 2005, FMCSA issued policy guidance on compliance with FMVSS. It
stated that if FMCSA or state inspectors determine that Mexican-domiciled motor
carriers are operating vehicles not in compliance with FMVSS, FMCSA may use
this information to deny, suspend, or revoke a carrier’s operating authority for
making a false certification or issue appropriate penalties.

The policy guidance states that for vehicles without certification labels,
enforcement officials “should defer to” the vehicle identification number (which
identifies the vehicle’s model year) to determine whether a vehicle complies with
applicable manufacturing standards. It notes FMCSA’s determination that most
vehicles produced in Mexico beginning in model year 1996 have met applicable
manufacturing standards.

Our audit work did not assess FMCSA’s rationale for withdrawing the rulemaking,
but we identified a problem that hindered full implementation of FMCSA’s
August 2005 policy guidance. Inspectors were entering Mexico-domiciled motor
carriers’ vehicle identification numbers into its inspection database only 37
percent of the time. For the remaining 63 percent, either non-related, incomplete
or no data were entered into the optional vehicle identification number database
field.

After we issued our report in August 2007, FMCSA issued additional guidance in
September 2007 to make it mandatory for its inspectors to input the vehicle
identification numbers for NAFTA demonstration project participants. Although
no buses are participating in the demonstration project, FMCSA recently modified
its software to prompt a check of vehicle identification numbers when inspectors
record roadside inspection data for all vehicles. We are reviewing the vehicle
identification number policies in our follow-up audit on the Implementation of
NAFTA Cross-Border Trucking Provisions.

FMCSA’s Research on the Degree to which Mexican Commercial
Vehicles Operating in the United States Comply with FMVSS
In September 2008, 5 as required by the Safe, Accountable, Flexible, Efficient,
Transportation Equity Act: A Legacy For Users, we reported on the scope and
methodology FMCSA used in its review of Canada/Mexico compliance with
FMVSS. Based on a review performed under a grant issued to the Texas
Transportation Institute (TTI), Texas A&M University System, FMCSA reported




5
    OIG Report Number MH-2008-081, “Report on the Scope and Methodology of FMCSA’s Review of
    Canadian/Mexican Compliance with Federal Commercial Motor Vehicle Safety Standards,” September 24, 2008.


                                                                                                          4
the results of the review to Congress in an April 2007 report, entitled “The Review
of Canadian/Mexican Commercial Vehicle Compliance with FMVSS.” 6

Our audit found that TTI’s estimates, subsequently formulated based on their
sample, were not statistically valid because of how the sample was selected and
projected. According to FMCSA, the concerns we raised may be valid, but
FMCSA does not expect that the reported findings are significantly affected by
them.

TTI estimated that over 90 percent of Mexico-domiciled carrier-owned
commercial trucks, trailers, and passenger buses entering the United States at the
commercial border crossings complied with FMVSS.7 That estimate was based
on the review of 3,294 sample vehicles at selected border crossings (including 387
buses) between February 13, 2006, and March 24, 2006. TTI estimated that of the
sampled vehicles, all complied with FMVSS except 160 trucks, 233 trailers, and
8 buses. 8

TTI’s estimate included vehicles it examined at the United States-Mexico border
to determine whether each vehicle had an FMVSS or Canadian Motor Vehicle
Safety Standards certification label affixed to it. 9 If a label was not present, TTI
used the vehicle identification number to provide evidence of a vehicle’s date and
location of manufacture. 10 TTI counted the vehicle as FMVSS compliant if it met
the pre-determined country manufacturing date based on an FMCSA analysis of
industry supplied information.       TTI then computed statistical projections
(estimates) by applying probability formulas to the data. The dates used in the
study are presented in the table below.




6
     Section 4139(b) of the August 2005 Safe, Accountable, Flexible, Efficient Transportation Equity Act: A Legacy for
     Users (Pub. L. No. 109-59 [2005]), Section 4139(b) required FMCSA to review Canada/Mexico compliance with
     FMVSS.
7
     According to TTI, its sample and the probability formulas used to make estimates based on sample results provide
     valid statistical estimates at the 95-percent confidence level. Confidence level is the probability that an interval
     estimate will include the population parameter. Higher probability means more confidence.
8
     TTI examined 1,573 Mexican-owned trucks and tractors (herein referred to as trucks), 1,334 trailers, and 387 buses.
9
     According to TTI, Mexico does not have a certification label requirement similar to that of the United States.
     Therefore, no label would be present even if the vehicle was built in the same plant with the same design
     specifications as an FMVSS compliant vehicle for sale in the United States.
10
     Standard vehicle identification numbers comprised of 17 alphanumeric characters with the first character
     representing the country of manufacture.


                                                                                                                       5
     Table. FMVSS Compliant Country of Manufacture Dates
                   Used by TTI in Its Study
                              Mexican-Owned
  Country of                    Commercial                   Mexican-Owned
  Manufacture               Trucks and Trailers*           Commercial Buses*
  United States                     1981                           1981
  Canada                            1991                           1971
  Mexico**                          1996                  None assumed to comply
  Source: TTI
  * Assumed to be FMVSS compliant if manufactured on or after the calendar year cited.
  **The dates were applied to Mexico manufactured and non-United States and non-Canada
  manufactured vehicles, which included trucks manufactured in Japan; trailers
  manufactured in the United Kingdom and Taiwan; and buses manufactured in Germany,
  Sweden, and Finland.

Of potential interest for this hearing, the research assumed that any bus examined
that did not have a certification label was “manufactured in Mexico” (see table)
and was assumed to be non-compliant with FMVSS because little information was
available to determine compliance. For trucks, the calendar year 1996 date was
used to justify Mexico truck compliance with FMVSS, even though the FMCSA
analysis of Mexico manufacturing practices concluded that “…most model year
1996 and later CMVs manufactured in Mexico may meet the FMVSS.” To
support this conclusion, FMCSA used examples of Mexico-manufactured vehicles
that could not have complied with FMVSS until after CY 1996. For instance,
Mexico did not adopt FMVSS antilock brake system requirements until
March 1, 1997.

Also of potential interest, TTI observed instances of non-standard vehicle
identification numbers, making it difficult to determine date and country of
manufacture. For example, TTI officials reported that at small border crossings,
some vehicle identification numbers consisted of seven to nine characters or had
characters with no readily apparent relation to standard United States vehicle
identification number coding.

Member Hersman, that concludes my statement. We hope the information
provided will be helpful to the Board in its investigation and I would be pleased to
address any questions that you or NTSB staff might have.




                                                                                         6
EXHIBIT. OFFICE OF INSPECTOR GENERAL NHTSA AND
FMCSA RELATED REPORTS AND TESTIMONIES, 2006-2008 11

OIG Report Number MH-2008-081, “Report on the Scope and Methodology of
FMCSA’s Review of Canadian/Mexican Compliance with Federal Commercial
Motor Vehicle Safety Standards,” September 24, 2008.

OIG Report Number MH-2008-059, “Use of Income Derived From the
Commercial Driver’s License Information System for Modernization,”
July 10, 2008.

OIG Report Number MH-2008-046, “Best Practices For Improving Oversight of
State Highway Safety Programs,” March 25, 2008.

OIG Testimony Number CC-2008-049, Testimony before the United States Senate
Committee on Commerce, Science, and Transportation, “Cross-Border Trucking
Demonstration Project,” March 11, 2008.

OIG Report Number MH-2008-040, “Interim Report on NAFTA Cross-Border
Trucking Demonstration Project,” March 10, 2008.

OIG Testimony Number CC-2008-013, Testimony before the United States Senate
Committee on Environment and Public Works, Subcommittee on Transportation
Safety, Infrastructure Security, and Water Quality, “Effectiveness of Federal
Drunk Driving Programs,” October 25, 2007.

OIG Testimony Number CC-2008-007, Testimony before the United States Senate
Committee on Commerce, Science, and Transportation, “Challenges Facing the
U.S. Department of Transportation, Fiscal Year 2008,” October 18, 2007.

OIG Report Number MH-2007-065, “Issues Pertaining to the Proposed NAFTA
Cross-Border Trucking Demonstration Project,” September 6, 2007.

OIG Report Number MH-2008- 062, “Follow-Up Audit of the Implementation of
the North American Free Trade Agreement’s (NAFTA) Cross-Border Trucking
Provisions,” August 6, 2007.

OIG Testimony Number CC-2007-078, Testimony before the United States House
of Representatives Committee on Transportation and Infrastructure, Subcommittee
on Highways and Transit, “Motor Carrier Safety: Oversight of High Risk Trucking
Companies,” July 11, 2007.

11
     OIG reports and testimonies can be found at our website www.oig.dot.gov.


                                                                                7
OIG Testimony Number CC-2007-026, Testimony before the United States Senate
Committee on Appropriations, Subcommittee on Transportation, Housing and
Urban Development, and Related Agencies, “Status of Safety Requirements for
Cross-Border Trucking with Mexico Under NAFTA,” March 8, 2007.

OIG Report Number MH-2007-036, “Audit of the National Highway Traffic
Safety Administration’s Alcohol-Impaired Driving Traffic Safety Program,”
March 5, 2007.

OIG Report Number MH-2006-046, “Significant Improvements in Motor Carrier
Safety Program Since 1999 Act But Loopholes For Repeat Violators Needs
Closing,” April 21, 2006.

OIG Report Number MH-2006-037, “Oversight of the Commercial Driver’s
License Program,” February 7, 2006.




                                                                         8
The following page contains the textual version of the table found in this
document. The page was not in the original document but has been added to
accommodate assistive technology.
           Report on the Scope and Methodology Used in
         FMCSA’s Review of Canadian/Mexican Compliance
      With Federal Commercial Motor Vehicle Safety Standards


                  Section 508 Compliant Presentation


Table. FMVSS Compliant Country Manufacture Dates Used by TTI in Its
Study

Mexican-Owned Commercial Trucks and Trailers assumed to be FMVSS
compliant if manufactured in the United States on or after calendar year 1981.

Mexican-Owned Commercial Buses assumed to be FMVSS compliant if
manufactured in the United States on or after calendar year 1981.

Mexican-Owned Commercial Trucks and Trailers assumed to be FMVSS
compliant if manufactured in Canada on or after calendar year 1991.

Mexican-Owned Commercial Buses assumed to be FMVSS compliant if
manufactured in Canada on or after calendar year 1971.

Mexican-Owned Commercial Trucks and Trailers assumed to be FMVSS
compliant if manufactured in Mexico on or after calendar year 1996.*

No Mexican-owned commercial buses were assumed to be FMVSS compliant if
manufactured in Mexico.*

Source: TTI

* The dates were applied to Mexico manufactured and non-U.S. and non-Canada
manufactured vehicles, which included trucks manufactured in Japan; trailers
manufactured in the United Kingdom and Taiwan; and buses manufactured in
Germany, Sweden, and Finland.
